No. 20-394
IN THE

iktprettte Court of tbe ntte 'tateo
DAVID ALAN SCHUM,
(Petitioner)
V.
FORTRESS VALUE RECOVERY FUND I, L.L.C., et al,
(Respondents)

CERTIFICATE OF COMPLIANCE
In accordance with Supreme Court Rule 14 and Rule 33(g)(i) I certify that
the Petition for a Writ of Certiorari of Petitioner David Alan Schum which was
filed on September 16, 2020 and placed on the docket September 25, 2020 contains
8,162 words.

David A. &hum, Pm Se
David A. Schum, Pro Se
4149 Lovers Lane, #C
Dallas, Texas 75225
469-513-2177
Email: watchradio@a.ol.com
October 2, 2020

No. 20-394
IN THE

buprettie Court of the Ilttiteb ibtateo
DAVID ALAN SCHU 4,
(Petitioner)

FORTRESS VALUE RECOVERY FUND I, L.L.C, et al,
(Respondents)
PROOF OF SERVICE
I, David Alan Schum, do swear or declare that on this date, October 2, 2020, as required
by Supreme Court Rule 29.5 (c) and in accordance with Supreme Court Order dated April 15,
2020, I have served the enclosed CERTIFICATE OF COMPLIANCE FOR THE PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel,
by electronic mail, at the address shown. The names and addresses of those served are as follows:
Schulte Roth & Zabel, L.L.P., Lawrence S. Goldberg, Daniel Bernard Zwirn, Perry Gruss
and Bernard National Loan Investors, Limited
Adam C. Harris, Attorney, Schulte Roth & Zabel, LLP,
Adam.Harris@srz.com
Michael L. Cook, Attorney, Schulte Roth & Zabel, LLP
Michael.Cook@srz.com
Fortress Value Recovery Fund I LLC, Fortress VRF 1 LLC, f/k/a I-HGHBRIDGE/ZWIRN
SPECIAL OPPORTUNITIES FUND, L.P.
Matthew W. Moran, attorney,
mmoran@velaw.corn
Katherine Dreli Grissel.
kgrissel@velaw.com

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2, 2020

David A, Scholia, Pro Sc
David A. Schum, Pro Sc
4149 Lovers Lane, #C
Dallas, Texas 75225
469-513-2177
Email: watchradioaaol..com
Fredrick C. Lewis
*toy Public. State of Texas
Comm. Expftes 05,02-2024
Nofary fD 130639326

2

David A. Schum

4149 Lovers Lane
Apartment C
Dallas, Texas 75225
469-513-2177

October 20, 2020
Supreme Court of the United States
Office of the Clerk — Attn: Michael Duggan
Washington, D.C. 20543-0001,
RE: Case # 20-394
In re: David Alan Schum v. Fortress, et al.
As per our phone conversation today, here is a copy of the word limit
Certificate of Compliance and the Proof of Service that I had originally mailed on
October 2, 2020.
Should there be any questions regarding this matter, please contact me at
your convenience. Thank you.

David A. Schum, Pro Se
Watchradioaol.com
Enclosures

RECEIVED
NOV - 3 2020
r,,,cE OF THE CLERK
','?ME COURT U.S.

